Docket No.

IV

Gflje Supreme Court of tfie Mmtetr States!
John Barth,
Petitioner

Supre

"IeT' us‘

V.

United States,
Respondent and Defendant
On Petition for Writ of Certiorari
to the United States Court of Appeals for the First Circuit

PETITION FOR WRIT OF CERTIORARI

John S. Barth
P.O. Box 88, Springvale, ME 04083
(207) 608-1741

OFFICE OF

SIEclerk

Questions Presented for Review
1. Violation of Constitutional Rights
Did acts of a federal court in publishing sealed documents of investigation rather
than returning them, violate rights of the Plaintiff (a) against the taking of private
property, (b) to due process and equal protection, (c) against the seizure of papers
and effects, and (d) to the copyright in sealed documents? Shall this Court order
compensation under the takings clause?
2. Resolution of Conflicting Jurisdiction Denials
Will the Court (a) clarify the conflicting and evasive jurisdiction decisions of the
circuit courts, to ensure jurisdiction of federal claims in either the Court of Federal
Claims or district courts, and (b) review the case de novo, to avoid remand to biased
courts?
3. False “Sovereign Immunity” to Nullify Rights
Does the lower court resurrection of the tyrant’s defense of “sovereign immunity”
violate and seek to nullify the rights of citizens guaranteed by the Constitution and
laws of the United States, including the Takings clause of the Fifth Amendment,
the Tucker Act and Federal Tort Claims Act, the Civil Rights Act, and many prior
decisions of this Supreme Court?

1

PARTIES
1. Plaintiff John S. Barth, jr. is the author of a copyrighted novel titled The
National Memorial, hereinafter "property of Plaintiff," or “subject property."
Plaintiff is represented pro se, but is well able to argue and brief the case in a
competent manner.
.2. Defendant United States is sued in its liability for compensation of damages due
to taking of private property without just compensation, denial of property without
due process of law, denial of equal protection of law, unlawful seizure of papers and
effects, and violation of copyright law.

2

Table of Contents
Table of Authorities.....................................................
Orders Entered.............................................................
Jurisdiction...................................................................
Statement of the Case with Pertinent Facts..............
Reasons for Granting Certiorari.................................
Reasons for Certiorari of Question 1: Claims.............
Judicial Acts Obstructed Defense Against Taking.
Obstruction Of Defense Against Taking Is Taking
Direct and Substantial Involvement.......................
Due Process and Equal Protection Denied.............
Violation of Copyright in Sealed Documents.........
Unlawful Seizure of Papers and Effects.................
Collusion in Copyright Racketeering......................
Conclusion on Certiorari of Federal Claims...........
Reasons for Certiorari of Question 2: Jurisdiction....
Jurisdiction of Unconstitutional Judgment Effects
Lower Courts Seek to Deny Any Forum for Rights
Perjury in Quotation to Subvert Tucker Act..........
Federal Claims Required No Review of Judgment.
Conclusion on Certiorari of Jurisdiction Issues.....
Reasons for Certiorari of Question 3: “Immunity”.....
Constitution and Laws Cede Sovereign Immunity.
Government Liable for Civil Rights Law Violation
Denial of US Supreme Law by the Lower Courts...
Westfall Act Merely Assumes Employee LiabilityConclusion on Certiorari of Immunity Issues........
Conclusion on Certiorari of These Questions.............
Appendix A: Decision of CA CD District Court.........
Appendix B: Decision of Court of Federal Claims.....
Appendix C: Decision of Federal Circuit Court.........
Appendix D: Decision of Mass. District Court...........
Appendix E: Mass. District Fails to Reconsider........
Appendix F: Decision of First Circuit Court...............

3

4
7
7
8
9
10
11
12
12
13
13
14
14
14
15
15
16
16
19
19
19
20
20
21
22
23
24
27
28
32
34
36
36

Table of Authorities
Copyright Cases
1. A&M Records. Inc, v. Napster, Inc., 239 F.3d 1004 (2001)
2. Arista Records v. Lime, 784 F.Supp.2d 398 (NY SD 2011)
3. EMI Music NA v. Escape Media, USDC NY SD (2015)
4. Fonovisa v. Cherry Auct.. 76 F.3d 259 263-4 (9th Cir. 1996)
5. Gershwin Publ. v. Columbia, 443 F.2d 1159 (2d Cir. 1971)
6. Harper & Row v. Nation Enters., 471 U.S. 539, 566-7 (1985)
7. Hustler Mag, v. Moral Mai., 796 F.2d 1148 (9th Cir. 1986)
8. MGM Studios. Inc, v. Grokster. 545 U.S. 913, 930, 125 S. Ct. 2764 (2005)
9. Twin Peaks Prod, v. Publ. Int’h 996 F.2d 1366 (2d Cir. 1993)
10. UMG v. GrooveShark. NY Sup Ct (20101
11. U.S. v. Kim Dotcom et al, l:12-cr-3 (E.D. Va.)(2015)
12. Worldwide Church of God v. Phila. Church. 227 F.3d 1118 (9th Cir. 20001
13. eBavv. Bidder’s Edge. 100 F. Supp. 2d 1058 (CAND 2000)
14. Concrete Mach. Co. v. Classic Lawn. 843 F.2d 600 (1st Cir. 1988)
Racketeering Cases
20. Brandenburg v. Seidel. 859 F.2d 1179, 1189 (4th Cir. 88)
21. Hecht v. Commerce Clearing. 897 F2d 21 (2d Cir. 1990)
22. Sedima. S.P.R.L. v. Imrex Co.. 473 U.S. 479, 497 (1985)
23. United States v. Kim Dotcom, US DC VA (ED)(pending)
Definition of Constructive Taking of Property
30. Gomillion v. Lightfoot 364 U.S. 339 (1960)
31. Inmob. Bor. Inc, v. Santiago 195 F.Supp. 203 (D.PR ’69)
33. Lucas v. SC Coastal C. 505 US 1003, 112 S.Ct.2886, 1992
34. Nollan v. Calif. Coastal Comm.. 483 U. S. 825 (1987)
36. Palazzolo v. Rhode Island. 99-2047 (2001)
37. Penn Central Transp. v. NY City 438 U.S. 104 1978
38. Penn. Coal Co. v. Mahon. 260 U.S. 393 (1922)
39. U.S v. General Motors 323 U.S. 373. 378 (19451
40. U.S. v. 564.54 Acres. 441 U.S. 506. 511 (1979)
41. Boise Cascade Corp. v. U.S.. 296 F.3d 1339 (Fed. Cir. 2002)
42. Palm Beach Isles Associates v. U.S. 99-5030 (Fed. Cir. 2001)
Denial of Liberty and Property Without Due Process of Law
50. Board of Regents v. Roth. 408 U.S. 576
51. Cleveland Bd of Ed v. Loudermill. 470 US 532
Civil Rights Cases (cited together, pages kkk)
60. Bryan County v. Brown. 520 U.S. 397
61. Mitchum v. Foster. 407 U.S. 225, 92 S.Ct. 2151 (1972)
62. Monell v. NYC Dept. Social Serv.. 436 U.S. 658 (1978).

4

63. Monroe v. Pape 365 U.S. 167
64. Parratt v. Taylor 451 U.S.,101 S.Ct. 1908, (1981)
65. Pembaur v. Cincinnati. 475 U.S. 469 (1986)
66. St. Louis v. Pranrotnik, 485 U.S. 112, 127 (1988)
67. Willowbrook v. Olech. 528 US 562,120 S.Ct. 1073
68. Yick Wo v. Hopkins 118 US 356 (1886)
Jurisdiction Cases
70. Brott v. United States. No. 16-1466, Sixth Circuit (2017)
71. Jacobs v. United States. 290 U.S. 13.16 (1933));
72. United States v. Dickinson. 331 U.S. 745, 748 (1947).
73. First English. 482 U.S. at 315
74. Minnesota v. United States, 305 U.S. 382, 388 (1939).
75. Ruckelshaus v. Monsanto Co. (1984) [10],
76. Preseault v. ICC (1990) [11].
Related Cases
80. John Barth v. Plavster Corn., 17-0274, USDC CA CD (2017)
(unlawful publication of sealed documents)
81. Barth v. U.S.. 17-1037 (Fed.Cl. 2017),
18-1776 (Fed. Cir.) (perjury in denial of jurisdiction)
82. Barth v. U.S.. l:18-cv-12001 (MA DC, 2018),
18-2263 (1st Cir.) (denial of constitutional rights)
Statutes of the United States
17 USC §§ 101-810 Copyright Act, including the
Digital Millennium Copyright Act
18 USC § 101 No Electronic Theft Act (NET).
18 USC §§ 1961-1968 (RICO)
Racketeer Influenced Corrupt Organizations Act
18 USC § 2319 Criminal copyright infringement
per 17 USC §506(a)(l)(A)
28 USC Ch. 161 - The US as a party
28 USC Ch. 165 - COFC Procedure
28 USC Ch. 171 - Tort claims procedure
28 USC § 1346(b) Federal Tort Claims Act (FTCA)
28 USC § 1491 Tucker Act, jurisdiction
28 USC § 1495 (“little Tucker Act”)
28 U.S.C. § 2679 Westfall Act
42 USC §§ 1983 to 1988 (Civil Rights Act)
Provisions of the United States Constitution
Amendment IV
“The right of the people to be secure in their persons, houses, naners. and
effects, against unreasonable... seizures, shall not be violated...”
5

Amendment V
"No person shall...be deprived of life, liberty, or property, without due process
of law: nor shall private property be taken for public use without just
compensation."
Other Authorities
90. Federal Liability for Takings and Torts, Abend,
31 Fordham Law Review 481
91. Manual of Federal Practice, U.S. Dept, of Justice
92. Standards for Just Compensation, M. Leroy
93. Measure of Just Compensation, K. Wyman, NYU

Unless the bodies politick will exert themselves to bring things back to first
principles, correct abuses, and punish our internal foes, inevitable ruin must follow.
- George Washington, letter to George Mason, 1779
I deem the essential principles of our government... equal justice to all men... the
honest payment of our debts and sacred preservation of the public faith...
- Thomas Jefferson, inaugural address, 1801
The... United States has been... a government of laws, and... will cease to deserve
this... if the laws furnish no remedy for the violation of a vested legal right.
- John Marshall, Marbury v. Madison, 1803
A revolt of the judiciary is more dangerous to a government than any other, even a
military revolt.
-Alexis de Toqueville, Democracy in America, 1835
A state in which the law is powerless to punish a thief, or in which society is unable
to restrict the action of the government, are equally opposed to the notion of polity.
-Lord Acton, Essays on Church and State, c.1864
The greatest dangers to liberty lurk in insidious encroachment by men of zeal, wellmeaning but without understanding. ... If the government becomes a law-breaker,
it breeds contempt for law.
- Louis Brandeis, Olmstead v. U.S., 1928
The rights of every man are diminished when the rights of one man are threatened.
- John F. Kennedy, report on civil rights, 6/11/1963

6

Orders Entered
Item
Court
Date
U.S. Ct of Appeals, 1st Circuit, No. 18-2243
8/7/2019
(denial of constitutional rights) (affirming)
11/30/2018 U.S. Distr. Ct, MA, No. l:18-cv-12001
(denial of constitutional rights) (dismissal)
9/11/2018 U.S. Ct of Appeals, Fed Cir., No. 18-1776
(perjury: denial of jurisdiction) (affirming)
Barth
v. U.S.. No. 17-1037 (Fed.Cl. 2017)
3/23/2018
(perjury: denial of jurisdiction) (dismissal)
4/27/2017 John Barth v. Plavster Corn..
No. 17-0274 (CA CD DC, 2017) (dismissal)
(unlawful publication of sealed documents).
Jurisdiction
Jurisdiction of the United States Supreme Court is conferred by Article III
sections 1,2 of the U.S. Constitution; 28 USC §2106 confers jurisdiction to modify or
reverse any judgment or order of court lawfully brought for review.
This petition is brought under the Civil Rights Act (42 USC §§1983 to 1986),
for violation by the defendant of rights of the Plaintiff guaranteed by the
Constitution. The federal courts have jurisdiction under 28 USC §1331 of the claims
herein of violations of rights guaranteed by the US Constitution; and under 28 USC
§1343(1-3) of all claims herein of deprivations of civil rights in violation of 42 USC
§§ 1983-1986.

7

Statement of the Case with Pertinent Facts
The appeal in this action was of wrongful dismissal of an action in
Massachusetts to defend the rights of citizens against the taking of private property
without compensation, guaranteed by the Constitution of the United States. There
is no one who would not be forced to defend these rights in the Plaintiff situation.
The original California district action [80] was a civil racketeering case
undertaken for compensation of damages to Plaintiff caused by the unlawful
distribution of intellectual property of which he has the copyright. The Plaintiff has .
been injured financially by copyright piracy racketeers who sold many tens of
thousands of low cost digital copies of his prize-winning novel, taking nearly all
proceeds of the very substantial sales. Such internet racketeers have robbed many
of a generation of creative persons of all compensation for their intensive work.
Having legal experience, the Plaintiff spent over a year investigating two groups of
racketeers with layers of interconnected websites, layers of shell corporations, and
fake offices in piracy venues such as Panama, Barbados, Cayman Islands, Montreal,
London, etc., and Los Angeles.
The Plaintiff then filed that case [80] in Los Angeles with Application to File
Under Seal, with all documents in a sealed envelope with standard cautionary
headings that disclosure would prevent recovery of damages. The California district
refused to seal the case, despite repeated letters and Motions emphasizing the
resulting damages, and instead of returning the investigation documents, published
them on the court and Pacer websites [81, Add. 23], notifying the racketeers and
precluding recovery of damages. No appeal could reverse the damage done. Details
of the persistent errors of the district judge will be provided.
The United States acting through administrative errors, has taken the
private property of the Plaintiff, in violation of the “self-executing” takings clause of
Amendment V, which mandates just compensation. It has also unlawfully seized
papers and effects, violated copyright in sealed documents, denied due process and
equal protection, unlawfully refused to prevent imminent civil rights violation, and
unlawfully ratified violations of constitutional rights. Argument is presented in the
Appeal Brief [81] under Violation of Rights as the Effect of the California Decision.
The California district acts made the United States liable for the taking of private
property, without reference to any grounds thereof. The COFC and Mass District
cases seek compensation for property taking by the United States, are not appeals,
and do not name any federal employees as defendants.
In this case, the facts, liability, and basis of claim are clear prima facie, and
the evidence is undisputed and sufficient for judgment as a matter of law. There can
be no more incontrovertible case of such violations. The lower courts have made
false statements of law, and even perjuries, showing incompetence or extreme
prejudice, and intent to subvert the United States Constitution and laws to serve a
political agenda, by:

8

1. denial of just compensation, due process, equal protection, and other
constitutional rights by groundless dismissal, ignoring the very clear memoranda of
constitutional law before them;
2. falsely denying all jurisdiction for federal claims; and
3. falsely constructing federal immunity against any and all claims.
It is understandable that a court might initially be concerned that the errors
of federal employees led to damages for which the United States is liable. But errors
occur, and the most honorable action is to ensure that damages are compensated.
The lower court bias is error: the patriotic course is correction of government error,
and this obstruction must be reversed.
The errors of law in the orders under review at best show prejudice against
federal claims and ignorance of the law of copyright, property takings,
constitutional rights, and federal claims. At worst, these orders constitute a very
serious political attack upon the Constitution and Laws of the United States,
including deliberate perjuries as well as distortions of law. This Court is asked to
review de novo, to see that the Plaintiff is compensated.
Reasons for Granting Certiorari
The judgments under review unconstitutionally (1) deny just compensation,
due process, equal protection, and other constitutional rights by groundless
dismissal, ignoring the very clear memoranda of constitutional law presented, (2)
deny all jurisdiction for federal claims, and (3) falsely construct federal immunity
against any and all claims. The judgments, their affirmation, and arguments are
repugnant to the Constitution, and without ruling by this Court will stand as a
poisonous precedent.
Summary
The circuit court decisions (1st and 6th Circuit) conflict with decisions of other
courts of appeals (Federal Circuit) on the jurisdiction of federal claims.
These decisions conflict with decisions of this Court, on jurisdiction,
immunity, and federal claims.
The lower court of appeals decisions seek to decide important questions of
law not yet decided by this Supreme Court, on injuries to citizens caused by
administrative error.
The lower courts have so far departed from the accepted course of
proceedings, in denial of filing under seal, in publishing sealed documents of
investigation, and in committing perjury to deny jurisdiction, as to call for exercise of
this Court’s supervisory power.
The grave and pervasive conflicts of the judgment under review with the
accepted course of proceedings, the decisions of this Court, and other U.S. courts of
appeals, call for certiorari. The judgments should be reversed, and specific
compensation ordered to prevent unjust compensation on remand.

9

Reasons for Certiorari of Question 1: Claims
1. Violation of Rights Guaranteed by Constitution and Laws
Did acts of a federal court in publishing sealed documents of investigation rather
than returning them, violate Plaintiff rights
(a) against the taking of private property,
(b) against the seizure of papers and effects,
(c) to due process and equal protection of law, and
(d) the copyright in sealed documents of investigation?
This question is of critical importance in protecting private intellectual property
from copyright piracy racketeering, where copious evidence has been assembled and
the racketeers identified, who have then been given all documents of the
investigation by gross error or by sympathizers in government, enabling them to
destroy evidence and remove the proceeds of their crime from the country.
The Plaintiff filed the original case in Los Angeles with Application to File
Under Seal, with all documents in a sealed envelope with standard cautionary
headings that disclosure would prevent recovery of damages. The California district
refused to seal the case, despite repeated letters and Motions emphasizing the
resulting damages, and instead of returning the investigation documents, published
them on the court and Pacer websites [81, Add. 23], notifying the racketeers and
precluding recovery of damages. No appeal could reverse the damage done.
The United States, acting through administrative errors or deliberate
unlawful acts of the district court, has taken the private property of the Plaintiff,
the damages due to him for infringement of copyright and unlawful sale of his
copyrighted work, and denied all compensation for damages, in violation of the
takings clause of Amendment V of the United States Constitution, and in violation
of rights to due process and equal protection, and against seizure of papers and
effects, and has further violated copyright in the documents of investigation, and
therefore must make just compensation of the Plaintiff, as argued in Plaintiff
Memorandum of Law 4 [82 Brief, App. 144]. The case involves no dispute as to
facts.
The refusal of the COFC, Federal Circuit, Massachusetts district, and 1st
Circuit to recognize and compensate these incontrovertible damages, and their
devious perjuries to evade liability and jurisdiction, prove their intent to act in
collusion with the racketeers.
The lower court decisions contradict definitive rulings of this Supreme Court
in several areas. Without intervention by this court, this precedent for
unconstitutional acts by federal government would jeopardize intellectual property
owners, nullify the Civil Rights Act and Amendments IV and V, and would waste
substantial judicial resources in redundant litigation.

10

Standard of Review and Application to the Case
Please refer to Plaintiff Memorandum of Law 4 [82 Brief, App. 144] for the
complete argument of the law of copyright racketeering based upon cases [1-23], the
law of property takings based upon cases [30-51], and the law of civil rights based
upon cases [60-68] as applied to this case.
Judicial Acts Obstructed Defense Against Taking
In denying process against property taking by the private defendants, the
errant district judge intentionally denied constitutional rights. Like the guard of an
armored truck who prevents a fellow guard from defending, the power of the judicial
office was used to obstruct the defense of private property against taking or damage
by third parties, and made the United States a principal in the damage.
Even if the errant district judge could not be held to the duty of a guard, the
government cannot claim to have been a neutral bystander, nor merely an
accessory, because without its powers and its decision the damage could not have
been done. In obstructing defense the errant judge used the judicial power to defeat
the rights of the people against the taking of property.
The denial of defense amounts to a regulatory taking by the judicial branch
as defined by this court in Palm Beach Isles Associates v. U.S. [42] (Fed. Cir. 2001)
and cases cited therein.
The criteria of regulatory taking established by the Supreme Court in Penn
Cent. Transp. Co. v. New York City [37] are (1) denial of an economically viable use
of the property; (2) investment-backed expectation of the denied use (likelihood that
property would be used in the manner denied); and (3) the right balance between
private rights and government need (more properly a criterion of eminent domain
taking rather than whether a taking has occurred). This case clearly meets these
criteria in that (1) the proceeds of sale of the copyrighted property of the Plaintiff
was denied, (2) the proceeds of sale was a reasonable investment-backed
expectation, and (3) there was no government need whatsoever warranting denial of
private rights.
The decision of the Los Angeles district court denying all claims, was severely
flawed in every point of law but could not be appealed, as the court published the
sealed documents, precluding recovery of damages from the original defendants,
and the issues were therefore presented as claims against the United States for the
taking of the property. The district court acts intentionally prevented the Plaintiffs
defense of the constitutional right against taking of his property. That right cannot
be dissolved by any act of court, nor alienated by any act of the Plaintiff, but is now
violated as the result of acts of the United States.
Without those acts of the lower courts, the Plaintiff could have defended his
constitutional rights in property, and could continue to defend those rights against
continuing violations. By these acts the judicial branch abandoned the role of

11

neutral judicial bystander, in the same manner as the guard who assists in robbery
assumes the role of principal. By this "direct and substantial involvement" the
violations are now acts of the judicial branch, a taking of private property by the
United States.
There is no legalistic wordplay or judicial doctrine which can nullify the
rights clearly set forth in the Constitution, and any attempt at this is subversion.
Amendment V obviously does not permit government evasion by soliciting,
facilitating, authorizing, or ratifying third parties to take property. The
Constitutional Convention knew that the British government had not explicitly
taken provisions and housing for its soldiers. The Convention and the ratifying
States were very much aware of these relationships when they prohibited such acts
by the federal government.
The founders of the nation would have been aghast to hear of interference
such as this by the judiciary with the defense of constitutional rights so clearly and
unequivocally established in our supreme law. These were plainly unconstitutional
acts.
Obstruction Of Defense Against Taking Is Taking
The United States has long recognized that obstruction of the defense of
private property against taking, is in itself the taking of private property. The
defense obstructed may be the private defense, military defense, defense against
severe weather, or legal defense of the property against taking or damage. The
United States has held responsible domestic and foreign individuals and entities,
local and state governments, federal agencies, foreign agencies and military forces,
and even foreign judiciaries for takings of private property by obstruction of
defense. The United States has held in Boise [41] that the act of its own district
courts in granting an injunction, denying the legal defense of private property
against taking, effected a taking of private property. Any argument that the U.S.
may deny responsibility for obstructing the defense of the property of U.S. citizens
against taking by third parties, is clearly unfounded.
This point is fully argued in the Plaintiff Brief of Appellant in [81] and will be
fully briefed.
Direct and Substantial Involvement
Where the U.S. acts to encourage or ratify the taking of private property by a
third party, even in a foreign country, it is a principal in the taking and liable for
compensation. This point is fully argued in the Plaintiff Brief of Appellant in [81].
To establish taking by the U.S. acting through a third party, the Supreme
Court has required showing that the taking or damage occurred as a result of
"direct and substantial" involvement of the U.S. in the third party acts [7, 8 at 93].

12

In every historical case of obstruction by a sovereign power of the military,
private, or legal defense of property of U.S. citizens against taking or damage by
third parties, the United States has found the sovereign power to have had direct
and substantial involvement in the taking, and where no law or treaty held, has
responded with military force. This includes both historical and very recent cases.
The United States has accepted reciprocal responsibilities under treaties and
arbitration, that obstruction of the military, private, or legal defense of foreign
property against taking or damage by third parties or natural processes operates as
“direct and substantial” involvement of the United States therein (see treaty
citations). Finally, United States law obligates individuals and private entities as
principals in the taking or damage of property by such obstruction of its defense, as
“direct and substantiar involvement, and the United States has held that it is
obligated in the same manner as an individual in such takings.
Therefore where the United States acts to prevent the legal defense of private
property against taking by a third party, it solicits, facilitates, and ratifies the
damage to property as a principal, and is liable for just compensation.

Due Process and Equal Protection Denied
In denying filing under seal of the sealed documents of investigation, which
the federal government routinely and necessarily seals in its own investigations of
international crime including copyright racketeering, the lower courts prima facie
denied the Plaintiff both due process of law, and equal protection of law. This
argument will be fully briefed by the Plaintiff.
The federal government has prosecuted numerous copyright pirates including
internet copyright racketeers, and therefore in denying both prosecution and
jurisdiction to the Plaintiff in strictly comparable circumstances, has prima facie
denied the Plaintiff both Due Process of law, and the Equal Protection of Law
guaranteed by Amendment V of the Constitution of the United States. This
argument will be fully briefed by the Plaintiff.
The orders fail to comprehend the Equal Protection and Due Process
violations, argued in Memorandum of Law 4 [App 144] under Unlawful Dismissal of
Due Process Claim [App 159] and Unlawful Dismissal of Equal Protection Claim
[App 164].
Violation of Copyright in Sealed Documents
Intellectual products of citizens are under copyright from the moment of their
creation, and are registered only to notify civil parties that the copyright must be
respected under penalty of law. The subject property was so registered and the
original private defendants therefor were under such notice.

13

The federal judiciary is presumptively aware of federal law, and requires no
copyright registration to be constructively under notice of such protection. Plainly
the Los Angeles district court, a few miles from Hollywood, in which a
preponderance of US copyright cases are litigated, is very much aware of copyright
issues, and was fully notified by the Plaintiff of the unlawful and unconstitutional
effects of publication of the sealed documents of investigation. Therefore the lower
courts prima facie violated the Plaintiff copyright in the documents of investigation.

Unlawful Seizure of Papers and Effects
The lower court unlawfully and unreasonably seized papers and effects from
the Plaintiff, the sealed documents of investigations, in prima facie violation of
Amendment IV of the Constitution of the United States, and deliberately used those
papers to injure the Plaintiff financially to the maximum extent of its ability. This
argument will be fully briefed by the Plaintiff.
Collusion in Copyright Racketeering
The extreme prejudice of the district court in publishing the sealed
investigation documents of a case that would be conducted under tight secrecy by
the United States, and thereby preventing recovery of damages, and its multiple
refusals to correct this error, establish its willful action in collusion with
racketeering defendants to deny compensation to the Plaintiff.
Collusion in any role in racketeering crime is participation as a principal in
racketeering crime, for which the district judge has made the United States liable
for compensation of damages.
Conclusion on Certiorari of Federal Claims
Prior decisions of this Court establish that the interest of the Plaintiff in the
subject property was destroyed by the lower courts, and comprised all or nearly all
of the value of the subject property, the prize-winning product of years of his work
and over a year of racketeering investigation, and several years of prosecution in
federal courts. By the prior decisions of this Court, these acts of the United States
constitute a federal taking of private property, and Amendment V requires directly
that these takings must be compensated regardless of any law or argument.
Government is also liable for violations of the Civil Rights Act 42 USC §1986
in knowing that rights violations “are about to be committed, and having power to
prevent or aid in preventing the commission of the same, neglects or refuses to do
so” as did the California court. Denial of process against civil rights violation is such
a violation. This is argued in Memorandum of Law 4 [81 Brief App 144] under
Unlawful Dismissal of Violations of 42 USC §§1985-6.

14

The lower court rejected prior decisions of this Supreme Court, and the clear
mandate of the Constitution, put clearly before it, and chose instead to fabricate
preconditions, disappearing jurisdictions, fake immunities, and similar excuses to
circumvent constitutional rights, and even pretended that the federal government is
not subject to the Civil Rights Act. These were concerted efforts to subvert the
Constitution and laws of the United States. It is certain that the lower court judges,
subject themselves to property taking by government, would jealously defend the
very rights they would deny to the Plaintiff.
The judgment under review contradicts prior judgments of this Supreme Court, is
repugnant to the Constitution of the United States, and will stand as a poisonous
national precedent for unconstitutional seizures of private property, unless
corrected by this Supreme Court. Certiorari should be granted and judgment
reversed with just compensation specified. Plaintiff is prepared to argue these
issues with copyright racketeering law [1-23], property takings law [30-51], and
civil rights law [60-68] as applied to this case.
Reasons for Certiorari of Question 2: Jurisdiction
2. Conflicting Denials of All Jurisdiction
Will the Court (a) clarify conflicting and evasive jurisdiction decisions of the circuit
courts, to ensure jurisdiction, and (b) review the case de novo, to avoid remand to
biased courts?
The judgment under review is based upon the corrupt contention in [82] (App
D, E) that no federal court has jurisdiction of federal claims for mandated
compensation, neither the Court of Federal Claims (COFC) nor the district courts.
This case was filed in both venues. The Brief of Appellant to the Federal Circuit [81,
p.13-44] argues this issue.
Jurisdiction of Unconstitutional Judgment Effects
There are situations in which decisions of a district or circuit court may work
a taking of property without a judgment that taking should occur. Examples include
the effect of an injunction as in Boise [41], damages due to a judgment later
overturned, or errors of procedure causing injury. Because such damages cannot be
predicted, they are not within the original claims before those courts, and where the
damage exceeds $10,000, are within the exclusive jurisdiction of the Court of
Federal Claims.
In copyright infringement by the United States, the exclusive forum for
damage claims under 28 U.S.C. § 1498 (b) is the CFC. Similarly, disclosure in error
by a district court of trade secrets, financial information, passwords, or other
valuable information under seal can cause substantial financial losses to the
parties. The careless publishing of documents filed under seal in an international

15

racketeering case, notifying defendants to move proceeds out of the country
precluding recovery of damages, is a taking of private property by error in
procedure. No review of proceedings of another federal court is needed: only the
improper effect of proceedings. Again the proper forum is the CFC.
Similarly, process in another federal court cannot be presumed to have
resolved all matters of equity presented, leaving no residual issue of equities
unresolved, especially where all process was denied.
No system of law can produce zero errors. Both district and appeals courts
may make errors, but the Supreme Court only reviews about one percent of cases
with petitions for certiorari. Therefore few circuit court errors are timely corrected,
and some will leave issues of compensation denied by government error. To assume
that an inequitable result must be the fault of the injured party and therefore a just
punishment, is an indefensible non sequitur, of which no judge or other citizen
would wish to be the cause or the victim.
Compensation of all classes of unusual damages caused by federal process is
the responsibility of the federal government. This Supreme Court noted in Palazzolo
[36] that:
These inquiries are informed by the purpose of the Takings Clause, which is
to prevent the government from forcing some people to alone to bear public
burdens which, in fairness and justice, should be borne by the public as a
whole. (Palazzolo v. Rhode Island, (Supreme Court, 2001), citing Armstrong
v. United States, 364 U.S. 40, 49, 1960)
Lower Courts Seek to Deny Any Forum for Rights
The lower courts denied any jurisdiction of constitutional obligations under
the Fifth Amendment’s Just Compensation Clause, which contravenes decisions of
this Court and other courts of appeals repeatedly recognizing that the Clause is self­
executing. The Fifth Amendment would be an empty protection indeed if Congress
or the Judiciary could avoid its command simply by passing or interpreting law to
deny all jurisdiction.
Only explicit and unequivocal evidence should permit a court to attribute to
Congress the deliberate intent to deny its citizens any forum for vindication of their
constitutional rights.
Because of the serious constitutional concerns raised by withdrawal of
jurisdiction for Takings claims, this Court has repeatedly held that only "an
unambiguous intention to withdraw the Tucker Act remedy" will suffice,
Ruckelshaus v. Monsanto (1984) [75], and that congressional intent to do so must be
"clear and unmistakable," Preseault v. ICC (1990) [76].
Perjury in Quotation to Subvert Tucker Act
The one-sentence Tucker Act created the Court of Federal Claims (COFC)
and defines five classes of injury claims of citizens for which it has jurisdiction.

16

Only the last categories is of non-tort claims. A single judge of the COFC has since
2006 been denying all jurisdiction of tort and other damage claims, subverting all
constitutional rights of citizens against injury by government, using a page of
citations all leading back to her own perjury in misquoting the Act to.delete all
other claims. This is a series of extreme perjuries in deliberate violation of official
capacity and public duty, for which she is personally liable for abuse of the COFC as
a racketeering enterprise. This is fully argued in the Brief of Appellant [81].
The Tucker Act created the court now named the COFC with jurisdiction of
nearly all claims against the United States:
The United States Court of Federal Claims shall have jurisdiction to
render judgment upon any claim against the United States founded
either upon the Constitution, or any Act of Congress or any
regulation of an executive department, or upon any express or
implied contract with the United States, or for liquidated or
unliquidated damages in cases not sounding in tort.
Note that the five phrases describe classes of claims permitted, and that the last
phrase “or for liquidated or unliquidated damages in cases not sounding in tort” is
the only class of cases not including tort issues. But in Agee v. U.S. (2006) the
COFC deliberately misquoted the above Tucker Act to deceive others that all
tort claims were excluded:
“The United States Court of Federal Claims shall have jurisdiction to render
judgment upon any claim against the United States...
...not sounding in tort.”
There is no more obvious perjury than this assertion of the COFC that this excludes
all tort claims, simply because the last phrase adds non-tort claims. The COFC has
since concealed this perjury by quoting a page of about 30 self-referencing citations
based solely on this deception, in hope that no one traces them. This perjury and its
concealment are an outrageous attack upon the rights of all citizens guaranteed by
our Constitution.
There can be no more extreme and deliberate subversion of the Constitution
and laws of the United States, and the rights of the People, than this bold and
brash perjury to deny all jurisdiction of their basic rights. These acts of the CFC are
premeditated acts of treason, far more dangerous to the United States than any
military attack in its history.
A revolt of the judiciary is more dangerous to a government than any other,
even a military revolt.
-Alexis de Toqueville, Democracy in America, 1835

17

The Plaintiff filed this case in the COFC [81], investigated its concealed perjury
when it denied jurisdiction, appealed, and the Federal Circuit ignored the definitive
Memorandum of Law, to claim without any foundation, the sole jurisdiction of
district courts, making a related perjury in quotation (App. C at II).
The district and circuit courts disagree, pushing cases back to the COFC. In
Brott v. United States [70] the 6th Circuit held that:
Congress has acted constitutionally in bestowing on the Court of Federal
Claims, an Article I court, exclusive jurisdiction over the landowners'
compensation claims ...
Jurisdiction clearly rested in the COFC and Federal Circuit. The Plaintiff
specifically cautioned that denial would necessitate later review by this Supreme
Court.
This case was filed in district court as demanded by the Federal Circuit,
which despite another definitive plaintiff Memorandum explaining all issues,
echoed another COFC perjury [Add. 12/6/18] that the Tucker Act cedes sovereign
immunity only for contract claims.
“(7) The Tucker Act is irrelevant as Plaintiff has alleged no plausible
contract... with the United States or the accused judge.”
It is plain prima facie that no judge was accused, and that the COFC jurisdiction is
far broader than contract claims. Upon appeal, the First Circuit made the even
more corrupt perjury [App. E] that neither the COFC nor district courts have
jurisdiction over violations of the rights of citizens by the federal government, when
in fact both have jurisdiction:
The fact that the Court of Federal Claims dismissed Barth's claims against
the United States for lack of jurisdiction on other grounds, See Barth v.
United States, 137 Fed.Cl. 65 (2018), affd, 737 Fed.Appx. 540 (Fed. Cir.
2018), does not entitle Barth to bring these claims in a federal district court.
See United States v. Tohono O'Odham Nation, 563 U.S. 307, 317 (2011).
..."the Tucker Act does not create any substantive right enforceable against
the United States for money damages, but merely confers jurisdiction when
such a right is conferred elsewhere." Adair v. U. S., 497 F.3d 1244, 1250 (Fed.
Cir. 2007).
Obviously the Constitution and Laws of the United States confer exactly those
rights, in exactly the manner outlined by the Plaintiff in definitive Memoranda of
Law to these corrupt lower courts. The judgments under review failed to offer any
cognizable argument in support of their zero-jurisdiction claims, which deliberately
violate and willfully subvert federal law.

18

Further, the right against the taking of private property under the Takings
Clause of the Fifth Amendment has been held by this Supreme Court to be “self­
executing” [71, 72] in that neither the legislative nor judicial branches may deny
jurisdiction or compensation, as these are directly mandated by the Constitution.
Note the further perjury of the First Circuit (above) that the COFC dismissed
this case for lack of jurisdiction “on other grounds” to deceive the casual reader that
some grounds other than the fully-described COFC perjury was involved.
Federal Claims Required No Review of Judgment
Although the COFC denied jurisdiction (App. B at III) on the preposterous
ground that it could not review the decisions of other federal courts, in fact the
federal claims do not request or require review of the CA district court decision to
dismiss (without prejudice), but of the wrongful administrative act of that court in
publishing sealed documents of investigation. Federal taking was not a claim before
the CA district court, nor could it have been. The COFC complaint did not seek
review of that decision, and so states in several places.
The Federal Circuit echoed this absurd and false excuse (App. C at I) despite
very clear argument, both in the COFC complaint and in the appeal brief.
Conclusion on Certiorari of Jurisdiction Issues
Allowing the government to take or destroy the property of citizens without
compensation is an extreme injustice, expressly prohibited by the US Constitution,
Amendment V, and explicitly held unconstitutional by this Supreme Court.
The repeated perjuries of the Court of Federal Claims and Federal Circuit,
denying all jurisdiction of federal claims, are extreme violations of public duty,
which call for exercise of this Court’s supervisory power.
The conflicting decisions of the Federal Circuit [81] and 1st and 6th Circuit
[82, 70] require resolution by this Supreme Court. See the Brief of Appellant in [81]
for the full argument of jurisdiction of the COFC.
Reasons for Certiorari of Question 3: “Immunity”
3. False “Sovereign Immunity” to Nullify Rights
Does the lower court resurrection of the tyrant’s defense of “sovereign immunity”
violate and seek to nullify the rights of citizens guaranteed by the Constitution and
laws of the United States, including the Takings clause of the Fifth Amendment,
the Tucker Act, and Civil Rights Act, and past decisions of this Supreme Court?
The United States was founded upon denial of immunity to the sovereign
George III for wrongs suffered by the People. The Constitution explicitly grants the
Bill of Rights of the people in its early amendments, implicitly ceding any immunity
for the extreme injustice involved in their violation.

19

The attempts by the lower courts to resurrect the tyrant’s defense of
“sovereign immunity” in defiance even of the laws affirming federal liability for
damages, are grave violations of the duties of public office.
This question is of critical importance to all citizens in protecting our
constitutional rights against violation by wrongful acts of employees of the federal
government. There is no dispute as to the facts.
Constitution and Laws Cede Sovereign Immunity
The United States Constitution ceded the ancient “sovereign immunity”
defense of tyrants, by establishing the rights of citizens in the Bill of Rights, much
as had been done in England centuries before, and extended those ancient rights.
The early judiciary failed to enforce constitutional rights in federal claims
without an act of Congress in each case, and as population increased, Congress
required it to do so. The 1855 act Ch. 122, 10 Stat. 612 and the 1887 Tucker Act
provided a special Court of Claims (now the Court of Federal Claims or CFC) with
jurisdiction of five broad categories of federal claims:
The United States Court of Federal Claims shall have jurisdiction to render
judgment upon any claim against the United States founded either upon the
Constitution, or any Act of Congress or any regulation of an executive
department, or upon any express or implied contract with the United States,
or for liquidated or unliquidated damages in cases not sounding in tort.
Further, the right against the taking of private property under the Takings Clause
of the Fifth Amendment has been held by this Supreme Court to be “self-executing”
[71, 72] in that no law or court may deny process or compensation, as just
compensation by federal government is directly mandated by the Constitution.
Subsequent regressions such as Brott [70] to the tyrannical pretense of
immunity of “us” federal employees for injury to “them” the People of the United
States pretend baselessly that there would be no means to enforce even the “self­
executing” Takings Clause without the Tucker Act, and then seek to subvert the
Tucker Act by perjury as to its text, and even to deny jurisdiction. These are plainly
false claims: the United States ceded all sovereign immunity in its Bill of Rights,
affirmed this in the 1855 act and 1887 Tucker Act, and thereby formally renounced
the immunity of tyrants.
There is no tyrannical “sovereign immunity” defense under the Constitution
and Laws of the United States, against claims of damages caused by government.
This issue will be fully briefed.
Government Liable for Civil Rights Law Violation
Government is also liable for acts of its employees, by policy of a “final
decision maker” showing "reckless disregard or indifference to need" despite having

20

a “choice among alternatives,” of failure to prevent imminent rights deprivation.
This matter is fully briefed by the Plaintiff [81, Brief, cases 60-68].
Denial of US Supreme Law by the Lower Courts
The district court decision (App. A, 12/06/18) attempted to resurrect the
“sovereign immunity” of tyrannical monarchs, against whom our nation revolted so
as to establish this federal government, and openly defied the Constitution and laws
of the United States, based upon deliberate false statements of law:
“(4) The law does not recognize a theory of derivative liability under which
the acts of an immune official can be attributed to the United States except
in those instances specified in the Westfall Act.” ...
“(6) There is no plausible basis under which the United States could be held
to have waived its sovereignty under the Westfall Act with respect to a claim
of tortious interference with intellectual property.”
“(7) The Tucker Act is irrelevant as Plaintiff has alleged no plausible
contract... with the United States or the accused judge.”
These statements are erroneous in every detail, at best showing ignorance of the
law of property takings, the law of civil rights, and the law of immunity.
The decision claims falsely that the personal immunity of federal employees,
none of whom were even named as defendants, somehow requires a “theory of
derivative liability” of the United States for their injurious acts, ignoring the
Fourth, Fifth, and Fourteenth Amendments, the Tucker Act, the Federal Tort
Claims Act, and rights guaranteed by the Constitution of the United States,
including the “self-executing” Takings clause of the Fifth Amendment, and the
entire history and case law of civil rights law and of federal claims, all before that
court in the Memoranda of Law. The lower court decision has no basis in law.
These perjuries by the district court completely misrepresented the law of
property takings, civil rights, and immunity, and are a calculated attack upon the
constitutional rights of all citizens of the United States.
The First Circuit also failed to address any of the issues presented for review,
and attempted the identical subversion of the Constitution and Laws of the United
States by pasting together an anti-constitutional doctrine of immunity to extinguish
constitutional rights, based solely upon their own past perjury that the Constitution
suddenly does not provide any rights of citizens against abuses by the federal
government:
We summarily affirm the dismissal of the complaint on the ground of
sovereign immunity... “... as the sovereign, the United States is immune
from suit without its consent.” Muirhead v. Mecham, 427 F.3d 14, 17 (1st
Cir.2005).

21

That statement has no basis in law whatsoever, and contradicts the entire history
and tradition of United States law of constitutional rights and federal claims, an
outright unlawful assertion of despotic power.
The attempt by the lower courts to ignore the essentials of federal law, and to
use perjury in the statement of the Tucker Act (see above) to resurrect a baseless,
anti-American claim of immunity for violations of the constitutional rights of all
citizens, is an act of very deliberate political subversion, a series of attacks upon the
rights of all citizens. The lower court judges should be dismissed.
Further, the right against the taking of private property under the Takings
Clause of the Fifth Amendment has been held by this Supreme Court to be “self­
executing” as directly mandated by the Constitution, so that any act of the
legislative or judicial branches to deny compensation, directly violates the Supreme
Law of the United States,
Westfall Act Merely Assumes Employee Liability
The Westfall Act merely substitutes the United States as a defendant in
cases in which a federal employee acting within public duty is charged with a
resulting injury. But the district court deliberately and wildly misconstrued the
Westfall Act to create sovereign immunity:
“(4) The law does not recognize a theory of derivative liability under which
the acts of an immune official can be attributed to the United States except
in those instances specified in the Westfall Act.” ...
“(6) There is no plausible basis under which the United States could be held
to have waived its sovereignty under the Westfall Act with respect to a claim
of tortious interference with intellectual property.”
The Westfall Act neither creates, seeks to create, nor could possibly create any
immunity of government in violation of constitutional rights, and the lower courts
plainly knew that, and committed extreme perjury with intent to subvert the
Constitution and laws of the United States. This is fully argued in the Brief of
Appellant in the lower court.
The First Circuit also made the half-witted perjury that the case is somehow
against a judge who is nowhere mentioned in the lower court case, and was
specifically exempted:
Barth's claims against the United States seek damages for alleged violation
of his federal constitutional rights stemming from actions of the federal judge
who presided over his copyright infringement case, Barth v. Playster Corp.,
et al., No. 17-cv-00274 (C.D. Cal. 2017)... Barth's claims against the United
States are founded on the acts and omissions of a federal district judge acting
within his judicial capacity. “Few doctrines [are] more solidly established ...

22

than the immunity of judges from liability for acts committed within their
judicial jurisdiction." Pierson v. Ray, 386 U.S. 547, 553-54 (1967).
The First Circuit well knew that this diversionary scam is completely immaterial,
with no basis in fact whatsoever, and that its claim that this was a central issue of
the case was perjury. This was another extreme abuse of office, an attempt to
recruit the tribal loyalty of “we” federal employees against “they” the People of the
United States, all of whose rights those judges clearly value at zero against the job
security of a single malefactor of their own tribe, who was not even named in the
lower court action.
Conclusion on Certiorari of Immunity Issues
These lower courts have sought to abolish the constitutional rights of the
People of the United States, by the capital pretense that government is as immune
as ancient tyrants for violation of fundamental rights of the People guaranteed
unconditionally by the Constitution and laws of the United States.
The lower court decisions ignore the United States Constitution, the Tucker
Act, the specific rights guaranteed by the Fifth Amendment of the Constitution of
the United States, including the “self-executing” Takings Clause, and the entire
history and case law of civil rights law and of federal claims, and past decisions of
this Supreme Court. This argument is presented in the Plaintiff Memoranda of Law
and Appeal Brief [81] under Errors of Immunity Law.
The lower courts ignored these issues and arguments before them, because
they knew that any argument thereof must be resolved in favor of the Plaintiff and
the People of the United States, and resorted to perjuries as to the law, with intent
to subvert the Constitution and laws of the United States, for the benefit of a rogue
political class.
These lower courts have sought to abolish the constitutional rights of the
People of the United States, the most extreme abuse of public office, and their
statements should be treated as subversion, in violation of official duty, for which
they are personally liable.
Here let those reign, whom pensions can incite,
To vote a patriot black, a courtier white,
Explain their country’s dear-bought rights away,
And plead for pirates in the face of day.
-Samuel Johnson
The lower court decisions contradict definitive rulings of this Supreme Court
in several areas, as well as consistent earlier rulings of the Circuit courts, and are
repugnant to the Constitution of the United States. Without intervention by this
court, this precedent for immunity for unconstitutional denial of rights jeopardizes
all citizens, nullifies the Bill of Rights and the Civil Rights Act, and would waste

23

substantial judicial resources in redundant litigation. Certiorari should be granted
and the judgment reversed with specified compensation of damages to the Plaintiff.
Conclusion on Certiorari of These Questions
The United States has clearly taken property of the Plaintiff, the very
substantial proceeds of sale of the subject property, and the labor of seven years, by
obstructing prosecution of internet copyright racketeering, and by publishing the
sealed documents of investigation, to notify the racketeers and prevent recovery of
damages. These acts violated the Civil Rights Act (42 USC §§1983 to 1986), by
violation and failure to prevent violation of rights of the Plaintiff, guaranteed by the
Constitution of the United States, including his right against the taking of property
without just compensation (Amendment V); his right against unreasonable seizures
of papers (Amendment IV); his right to due process of law (Amendment V), and his
right to equal protection of the laws (Amendment XIV). These acts also violated the
Plaintiff copyright in the sealed documents, and constitute collusion in the
racketeering crime. There is no dispute as to the evidence, which is all public record
of the lower courts themselves. Therefore the United States must make just
compensation to the Plaintiff.
The United States Constitution provides in Amendment V for compensation
for property takings, in clear, direct, and “self-executing” form that may not be
denied or obfuscated by the legislative or judicial branches, by inventing
immunities or denying all jurisdiction. The Tucker Act rests jurisdiction of these
claims prima facie in the Court of Federal Claims.
The judgment under review, and that of the District Court, Court of Federal
Claims, and Federal Circuit, are of the lowest possible quality, offering no argument
on the federal claims, and merely attempting subversion of the Constitution and
Laws through perjury and scams, to claim a blanket immunity that never existed,
and to deny all jurisdiction. These are no more than thieves’ excuses to steal and
destroy property, in direct and deliberate violation of the Constitution. These are
prima facie unlawful acts, and poisonous precedents that must be overturned.
The decisions issued in this case have sought to prevent enforcement of the
essential rights of citizens under Amendments IV and V, in deliberate violation of
the Civil Rights acts, under excuses repugnant to the Constitution and in violation
of the powers of the judicial branch. Without intervention by this court, this
precedent for unconstitutional taking of private property jeopardizes the rights and
investments of millions of Americans, nullifies the Civil Rights Act and
Amendments IV and V, and would waste substantial judicial resources in
redundant litigation.

24

Summary of Reasons for Certiorari
The lower court of appeals decisions (1st and 6th Circuit) on jurisdiction
conflict with decisions of other courts of appeals (Federal Circuit) on the jurisdiction
of federal claims.
The lower court of appeals decisions conflict with decisions of this Supreme
Court, on jurisdiction, immunity, and federal claims.
The lower court of appeals decisions unlawfully decide important questions of
law not yet decided by this Supreme Court, on injuries to citizens caused by
administrative error.
The lower courts have so far departed from the accepted course of
proceedings, in denial of filing under seal, in publishing sealed documents of
investigation, and in committing perjury to deny jurisdiction, as to call for exercise of
this Court’s supervisory power.
The grave and pervasive conflicts of the judgment under review with the
decisions of this Court and the U.S. courts of appeals call for certiorari: the
judgment must be reversed, and specific compensation ordered to prevent unjust
compensation on remand.

25

OATH
I hereby certify that all statements in the foregoing document are true and
correct to the best of my knowledge and belief, and that service has been made in
accordance with Rule 29 of the Rules of the Supreme Court, upon all parties hereto,
as shown by the Proof of Service filed herewith.
For Petitioner:

John S. Barth, pro se,
Petitioner and Plaintiff
day of
Dated this

, 2019

List of Counsel
For the Plaintiff:

For the Defendant:

John Barth, pro se
P.O. Box 88
Springvale, ME 04083
207-608-1741

A. Balakrishna, US Atty
U.S. Courthouse
1 Courthouse Way Ste 9200
Boston, MA 02210

26

